U.S. Department of Labor                 Office of Inspector General
                                         Washington, DC. 20210




      September 29, 2006

      MEMORANDUM FOR:             EMILY STOVER DeROCCO
                                  Assistant Secretary for Employment
                                   and Training



      FROM:                       ELLIOT P. LEWIS
                                  Assistant Inspector General
                                   for Audit

      SUBJECT:                    Individuals Received Unemployment Benefits
                                  in Louisiana While Receiving Public Service
                                  Employment Wages in Texas
                                  Management Letter No. 06-06-006-03-315

      INTRODUCTION

      Normally, a Management Letter is provided to be read in conjunction with an
      accompanying audit report. However, due to the proactive nature of our current
      work related to Hurricane Katrina, we will be issuing Management Letters to
      inform the Department, in this case, the Employment and Training Administration
      (ETA), of issues/problems we believe should be disclosed to help the
      Department’s programs operate efficiently and effectively while reducing the
      possibility of fraud, waste, and abuse.

      This Management Letter is an interim reporting mechanism and should be read
      with the understanding that only after the information in this Management Letter
      is evaluated/investigated by the OIG’s Offices of Audit (OA) and Labor
      Racketeering and Fraud Investigations, the Louisiana Department of Labor
      (LDOL), and the Texas Workforce Commission (TWC) can a determination be
      made as to the legitimacy of the unemployment claims discussed herein.

      BACKGROUND

      On August 29, 2005, Hurricane Katrina hit the Louisiana, Mississippi, and
      Alabama coasts, resulting in a national disaster. A national emergency was
      declared, making disaster unemployment assistance (DUA) available to residents
      of the affected areas who lost their jobs, or were unable to return to their jobs as
      a result of Hurricane Katrina, if they did not qualify for State unemployment
      compensation (UC). Additionally, on September 23, 2005, Hurricane Rita hit the
      Texas and Louisiana coasts, resulting in another national emergency declaration
      on September 24, 2005.

                        Working for America’s Workforce
UC provides benefits to eligible workers who are unemployed through no fault of
their own and meet eligibility requirements established by their State. UC
benefits are state funded. The purpose of the DUA program is to provide
unemployment assistance to individuals who become unemployed or cannot
commence employment as a direct result of a major disaster, but are not covered
under the Federal or state UC programs. DUA is available to individuals for
weeks of unemployment beginning after the date the major disaster began and
for up to 39 weeks after the major disaster was declared by the President, as
long as their unemployment continues to be a result of the major disaster.

On September 7, 2005, ETA awarded the State of Texas a National Emergency
Grant (NEG) to assist thousands of Louisiana evacuees who were displaced by
the hurricane. The $75 million grant, administered by TWC, had an initial release
of $23.5 million. The NEG was later modified to allow for public sector temporary
public service employment (PSE) jobs that were not directly related to the
disaster, and to provide the same Katrina-related allowable services to
individuals affected by Hurricane Rita.

OBJECTIVES, SCOPE, AND METHODOLOGY

Our audit objectives were to determine if:

     1. Individuals received Louisiana unemployment benefits for the same
        weeks they received wages while enrolled in Texas’ NEG PSE program.

     2. Texas’ Management Information System (MIS) properly reflected the
        enrollment status of its PSE participants.

We obtained LDOL’s Hurricanes Katrina- and Rita-related UC and DUA
databases for all benefits paid through the week ending December 10, 2005, to
identify benefit recipients.

We also obtained from the State of Texas an electronic data file of information for
691 PSE participants under Texas’ NEG awarded subsequent to Hurricanes
Katrina as of January 12, 2006.

We compared these two files and identified 2841 individuals who received UC or
DUA payments for weeks subsequent to their TWC-reported PSE starting date.
Of these 284 individuals, 240 participants received DUA/UC benefits beyond the
week ending November 19, 2005, the last week Louisiana automatically paid
benefits without claimants’ having to weekly certify their continuing eligibility for
DUA or UC benefits.


1
 Subsequent data mining efforts increased this number to 298 claimants; however, the additional
14 files were not included in the universe from which the sample covered in this Management
Letter was selected.

                                              2
We then determined the 240 participants identified were spread across eleven
Local Workforce Investment Areas (LWIAs), with 201, or 84 percent, enrolled in
four of the LWIAs: Alamo Workforce Development Board (San Antonio); North
Central Texas Workforce Board (Arlington); Capitol Area Workforce Development
Board including Rural Capitol Area (Austin); and South East Texas Workforce
Development Agency (Beaumont/Port Arthur). We judgmentally selected these
four LWIAs and reviewed all 201 participants.

We initially determined benefits paid through the week ending December 10,
2005, from the database of payments provided by LDOL. Once we identified
those PSE participants who received UC/DUA benefits after they began PSE
employment, we manually updated, from LDOL benefit records, all UC/DUA
benefits paid these participants for the weeks ending December 17, 2005,
through January 28, 2006. Consequently, our audit period was September 10,
2005, through January 28, 2006.

We compared the above database of payments from LDOL with the PSE payroll
records obtained from the LWIAs, or their contractors, through the week ending
January 28, 2006 (the latest week for which we had benefit payment records).
We then computed questionable overpayments, separated into overpayments
through the week ending November 19, 2005, and after the week ending
November 19, 2005.

This work was conducted in conjunction with the President’s Council on Integrity
and Efficiency (PCIE) as part of the Federal Government’s examination of relief
efforts in the aftermath of Hurricanes Katrina and Rita. When we issue this
report in final, we will forward a copy to the PCIE Homeland Security Working
Group, which is coordinating Inspectors General reviews of this important
subject.

RESULTS

Louisiana paid 284 individuals UC or DUA for the same weeks Texas
reported these individuals were enrolled in PSE.

From a sample of 201 of these 284 participants whom Texas reported as
enrolled in its NEG PSE program, we determined:

    •   Louisiana overpaid $126,663 to 1772 of the 201 participants (88 percent)
        (75 DUA, $33,882; 105 UC, $92,781), including $58,868 to 78 participants
        after the State discontinued its automatic pay system (the week ending
        November 19, 2005.)




2
 Three of these claimants received weeks of both UC and DUA; consequently, the number of
participants receiving UC (105) and DUA (75) adds to 180.

                                             3
Texas’ MIS did not accurately reflect PSE participants’ program status.

Texas’ MIS data files we were provided identified that only 21 of the 201 sample
participants’ PSE program participation had ended. For the 180 participants the
State’s MIS showed as still enrolled in PSE, 83 participants (46 percent) were not
enrolled:

      •   22 claimants never worked under the PSE program.
      •   61 claimants were no longer working under the PSE program (i.e., they
          were no longer on the PSE payrolls).

We have not questioned as overpayments any of the DUA or UC payments
made to these 61 claimants after they left PSE employment. However, if any of
these claimants accepted other suitable employment, they would be ineligible for
DUA or UC benefits while working. Although a UC claimant could restart his/her
existing UC claim if the claimant became subsequently unemployed, a DUA
claimant cannot because the subsequent unemployment would not be
attributable to the disaster

RECOMMENDATIONS

We recommend the Assistant Secretary for Employment and Training:

      •   Direct the State of Louisiana to:

              o Establish and collect the 75 overpayments identified in the DUA
                sampled files, provided under separate cover, from those
                individuals who have activated their debit card accounts3 or
                received direct deposit.
              o Determine any additional overpayments through the latest week
                DUA payments were made to these claimants.
              o Establish any DUA overpayments determined by the Texas LWIAs’
                payroll audits, recommended below.
              o Adjudicate the DUA claims for which claimants terminated from
                PSE but continued to receive DUA benefits, and establish
                overpayments, where necessary.

      •   Work with the State of Louisiana to:

              o Establish and collect the 105 overpayments identified in the UC
                sampled files, provided under separate cover, from those
                individuals who have activated their debit card accounts or received
                direct deposits.
              o Determine any additional overpayments through the latest week UC
                payments were made to the claimants.

3
    The State used debit card accounts to deposit claimants’ benefit payments.

                                                 4
           o Establish any UC overpayments determined by the Texas LWIAs
             payroll audits, recommended below.
           o Adjudicate the UC claims for which claimants have terminated from
             PSE but continued to receive UC benefits, and establish
             overpayments, where necessary.

   •    Work with the State of Texas to:

       o Follow up with the 61 participants who terminated their PSE employment
         to see if they obtained other suitable employment that would make them
         ineligible for any UC/DUA benefits they may have received after
         terminating from the PSE position. If so, notify Louisiana so it can
         adjudicate the claims and, if necessary, collect overpayments.

       o Have the LWIAs perform payroll audits for their NEG PSE programs
         based on the details, provided under separate cover, on the remaining
         97 (298 – 201) PSE participants who were potentially overpaid UC or
         DUA benefits. Using the spreadsheets provided by OIG’s OA, the
         LWIAs should complete the spread sheets and return to the State. The
         State should provide a copy of the completed spreadsheet to the State
         of Louisiana and the OIG-OA upon completion.

   •    Direct the State of Texas to update the State’s NEG participant data to
        properly reflect PSE participants’ termination status where necessary,
        based on the OIG’s and LWIAs’ audits, and continue to timely update its
        MIS for future exiters.


AGENCY RESPONSE

In response to the draft Management Letter, the Assistant Secretary for
Employment and Training stated that ETA is monitoring the States’ actions as
they establish and collect overpayments resulting from the improperly paid
benefits. ETA’s Regional Offices will continue to work with the States in this
regard, as well as in determining whether any other overpayments were made;
and ensuring NEG payroll audits are conducted, the MIS is updated, and other
recommendations are addressed, as appropriate. The Assistant Secretary’s
response is included in its entirety as an Attachment.

OIG CONCLUSION

Based on the Assistant Secretary’s response, we consider the recommendations
resolved. They will be closed upon receipt of documentation to support the
States’ actions to set up and recover all overpayments, conduct payroll audits,
and update the MIS, as described in the response.




                                           5
This final Management Letter is submitted for appropriate action. We request a
response within 60 days describing actions taken in response to the
recommendation.

If you have any questions concerning this Management Letter, please contact
John Riggs, Regional Inspector General for Audit, in Dallas at (972) 850-4003.

Attachment

cc:   Steven Law
      Deputy Secretary

      Phyllis Newby
      ETA Audit Liaison




                                       6
7
